~  / +l- J'.,
         ¥ S¡.llVJCIS (¡

~"
~
                                DEPARTMENT OF HEALTH &. HUMAN SERVICES
'ó l-
                                                                                                                         Office of Inspector General

    ..+,¡.l.(.....1)0                                                                                                    Washington, 0 C. 20201




                                                                                  1 7 2009




                        TO:                Charlene Frizzera
                                           Acting Administrator
                                           Centers for Medicare & Medicaid Services


                        FROM:              Daniel R. Levinson
                                                     /S/      ~ R. X~
                                           Inspector General


                        SUBJECT: Memorandum Report: "Comparison of Third-Quarter 2008 Average Sales Prices
                                           and Average Manufacturer Prices: Impact on Medicare Reimbursement for First
                                           Quarter 2009," OEI-03-09-00150


                        This review was conducted in accordance with the congressional mandate for the Office of
                        Inspector General (OIG) to review average sales prices (ASP) and average manufacturer prices
                        (AMP) for Medicare Part B prescription drugs and identify ASPs that exceed AMPs by at least
                        5 percent. The review also determined the impact of lowering reimbursement amounts for drugs
                        that meet the 5-percent threshold.

                        Since the advent of             the ASP reimbursement methodology in 2005, OIG has issued 10 reports
                        comparing ASPs to AMPs. This is OIG's 11 th pricing comparison, and it examines drugs that
                        met the 5-percent threshold based on either complete or partial AMP data in the third quarter of
                        2008.1 Of the 325 drugs with complete AMP data, 15 met the 5-percent threshold under the
                        revised ASP payment methodology recently mandated by statute. Twelve of                         these fifteen drugs
                        were previously eligible for price adjustment under the revised methodology, with two drugs
                        meeting the 5-percent threshold in each ofthe past seven quarters. We estimate that, if
                        reimbursement amounts for allIS drugs had been based on 103 percent of                       the AMPs, Medicare
                        expenditures would have been reduced by almost three-quarters of a milion dollars in the first
                        quarter of2009. Of               the 129 drugs with only partial AMP data in the third quarter of2008,                         I
                        21 had ASPs that exceeded the AMPs by at least 5 percent in the third quarter of 2008. Under
                        the revised methodology, 12 of                     the 21 drugs would have met the 5-percent threshold in at least
                        two of the past seven quarters, dating back to the first quarter of 2007. We estimate that
                        Medicare expenditures would have been reduced by $9 milion during the first quarter of 2009 if
                        reimbursement amounts for all                     21 drugs had been based on 103 percent of  the AMPs. We could
                        not perform pricing comparisons for an additional 67 drugs because none of the drug products

                        i In quarters prior to 2008, OIG performed pricing comparisons only for those drugs with AMP data for every drug
                        product used by the Centers for Medicare & Medicaid Services (CMS) to calculate the Medicare reimbursement
                        amount. As ofthe first quarter of2008, we began additionally examining drugs with only partial AMP data
                        (i.e., drugs with AMP data for some, but not all, of the products used to establish Medicare reimbursement). This
                        ensures that a broader range of drugs is subject to OIG's pricing comparisons.


                        OEI-03-09-00 150                                         Comparison of   Third-Quarter 2008 ASPs and AMPs
Page 2 – Charlene Frizzera


used to establish Medicare reimbursement had corresponding AMP data. Manufacturers for
almost 30 percent of those drug products had Medicaid drug rebate agreements and were
therefore generally required to submit AMPs. OIG will continue to work with CMS to evaluate
and pursue appropriate actions against those manufacturers that fail to submit required data.

BACKGROUND

Section 1847A(d)(2)(B) of the Social Security Act (the Act) mandates that OIG compare ASPs
to AMPs. Pursuant to sections 1847A(d)(3)(A) and (B) of the Act, if OIG finds that the ASP for
a drug exceeds the AMP by a certain percentage (currently 5 percent), the Secretary of the
Department of Health and Human Services (the Secretary) may disregard the ASP for the drug
when setting reimbursement amounts. Section 1847A(d)(3)(C) of the Act goes on to state that
“. . . the Inspector General shall inform the Secretary (at such times as the Secretary may specify
to carry out this subparagraph) and the Secretary shall, effective as of the next quarter, substitute
for the amount of payment . . . the lesser of (i) the widely available market price . . . (if any); or
(ii) 103 percent of the average manufacturer price . . . .”

Medicare Part B Coverage of Prescription Drugs
Medicare Part B covers only a limited number of outpatient prescription drugs. Covered drugs
include injectable drugs administered by a physician; certain self-administered drugs, such as
oral anticancer drugs and immunosuppressive drugs; drugs used in conjunction with durable
medical equipment; and some vaccines.

Medicare Part B Payments for Prescription Drugs
CMS contracts with private companies, known as Medicare Administrative Contractors (MAC),
to process and pay Medicare Part B claims, including those for prescription drugs. To obtain
reimbursement for covered outpatient prescription drugs, physicians and suppliers submit claims
to their MACs using procedure codes. CMS established the Healthcare Common Procedure
Coding System (HCPCS) to provide a standardized coding system for describing the specific
items and services provided in the delivery of health care. In the case of prescription drugs, each
HCPCS code defines the drug name and dosage size but does not specify manufacturer or
package size information.

Medicare and its beneficiaries spent approximately $11 billion for Part B drugs in 2007. 2
Although Medicare paid for more than 600 outpatient prescription drug HCPCS codes that year,
most of the spending for Part B drugs was concentrated on a relatively small subset of those
codes. In 2007, 52 codes accounted for 90 percent of the expenditures for Part B drugs, with
only 11 of these drugs representing half of the total Part B drug expenditures.




2
 Medicare expenditures for Part B drugs were calculated using 2007 data in CMS’s Part B Extract and Summary
System (BESS), which were 98 percent complete at the time of extraction.

OEI-03-09-00150                                  Comparison of Third-Quarter 2008 ASPs and AMPs
Page 3 – Charlene Frizzera


Reimbursement Methodology for Part B Drugs and Biologicals
Since January 2005, Medicare Part B has been paying for most covered drugs using a
reimbursement methodology based on ASPs. 3 Section 1847A(c) of the Act, as added by the
Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
defines an ASP as a manufacturer’s sales of a drug to all purchasers in the United States in a
calendar quarter divided by the total number of units of the drug sold by the manufacturer in that
same quarter. The ASP is net of any price concessions, such as volume discounts, prompt pay
discounts, cash discounts, free goods contingent on purchase requirements, chargebacks, and
rebates other than those obtained through the Medicaid drug rebate program. 4 Sales that are
nominal in amount are exempted from the ASP calculation, as are sales excluded from the
determination of “best price” in the Medicaid drug rebate program. 5 6

Manufacturers report ASPs by national drug codes (NDC), which are 11-digit identifiers that
indicate the manufacturer, product dosage form, and package size of the drug. Manufacturers
must provide CMS with the ASP and volume of sales for each NDC on a quarterly basis, with
submissions due 30 days after the close of each quarter. 7

Because Medicare Part B reimbursement for outpatient drugs is based on HCPCS codes rather
than NDCs and more than one NDC may meet the definition of a particular HCPCS code, CMS
has developed a file that “crosswalks” manufacturers’ NDCs to HCPCS codes. CMS uses
information in this crosswalk file to calculate volume-weighted ASPs for covered HCPCS codes.

Calculation of Volume-Weighted Average Sales Prices
To calculate volume-weighted ASPs, CMS uses an equation that involves the following
variables: the ASP for the 11-digit NDC as reported by the manufacturer, the volume of sales for
the NDC as reported by the manufacturer, and the number of billing units in the NDC as
determined by CMS. The amount of the drug contained in an NDC may differ from the amount
of the drug specified by the HCPCS code that providers use to bill Medicare. Therefore, the
number of billing units in an NDC describes the number of HCPCS code units that are in that
NDC. For instance, an NDC may contain a total of 10 milliliters of Drug A, but the
corresponding HCPCS code may be defined as only 5 milliliters of Drug A. In this case, there
are two billing units in the NDC. CMS calculates the number of billing units in each NDC when
developing its crosswalk files.



3
  In 2004, the reimbursement amount for most covered drugs was based on 85 percent of the average wholesale
price as published in national pricing compendia, such as the “Red Book.” Before 2004, Medicare Part B
reimbursed for covered drugs based on the lower of either the billed amount or 95 percent of the average wholesale
price.
4
  Section 1847A(c)(3) of the Act.
5
  Pursuant to section 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available from the manufacturer
during the rebate period to any wholesaler, retailer, provider, health maintenance organization, nonprofit entity, or
governmental entity within the United States, with certain exceptions.
6
  Section 1847A(c)(2) of the Act.
7
  Section 1927(b)(3) of the Act.

OEI-03-09-00150                                      Comparison of Third-Quarter 2008 ASPs and AMPs
Page 4 – Charlene Frizzera


Before April 2008, CMS calculated volume-weighted ASPs using the equation presented in
Appendix A. However, section 112(a) of the Medicare, Medicaid, and SCHIP Extension Act of
2007, P.L. No. 110-173, changed section 1847A(b) of the Act to require that CMS compute
volume-weighted ASPs using a revised methodology, effective April 2008. This revised
methodology was proposed by OIG in a February 2006 report entitled “Calculation of
Volume-Weighted Average Sales Price for Medicare Part B Prescription Drugs”
(OEI-03-05-00310). The revised equation for calculating volume-weighted ASPs is also
provided in Appendix A.

First-quarter 2009 Medicare allowances for most covered drug codes were based on
third-quarter 2008 ASP submissions from manufacturers, which were volume-weighted using the
revised methodology. Under the ASP pricing methodology, the Medicare allowance for most
Part B drugs is equal to 106 percent of the volume-weighted ASP for the HCPCS code.
Medicare beneficiaries are responsible for 20 percent of this amount in the form of coinsurance.

The Medicaid Drug Rebate Program and Average Manufacturer Prices
For Federal payment to be available for covered outpatient drugs provided under Medicaid,
sections 1927(a)(1) and (b)(1) of the Act mandate that drug manufacturers enter into rebate
agreements with the Secretary and pay quarterly rebates to State Medicaid agencies. Under these
rebate agreements and pursuant to section 1927(b)(3) of the Act, manufacturers must provide
CMS with the AMP for each of their NDCs on a quarterly basis, with submissions due 30 days
after the close of each quarter. 8

As generally defined in section 1927(k)(1) of the Act, the AMP is the average price paid to the
manufacturer for the drug in the United States by wholesalers for drugs distributed to the retail
pharmacy class of trade. Before the passage of the DRA, manufacturers were required to deduct
customary prompt pay discounts when calculating AMPs. However, section 6001(c)(1) of the
DRA amended section 1927(k)(1) of the Act, such that AMPs must be determined without
regard to customary prompt pay discounts, effective January 2007. In December 2006, CMS
instructed manufacturers to exclude customary prompt pay discounts from their AMP
calculations as of January 2007. 9 In July 2007, CMS published a final rule at 72 Fed. Reg.
39142 (July 17, 2007) that, among other things, implements section 6001(c)(1) of the DRA and
clarifies the way in which the AMP must be calculated. Specifically, 42 CFR § 447.504 of the
final regulation clarifies the manner in which the AMP is to be determined. 10



8
  Section 6001(b)(1)(A) of the Deficit Reduction Act of 2005 (DRA), P.L. No. 109-171, changed section 1927(b) of
the Act to require that manufacturers also report AMPs on a monthly basis, effective January 2007. Drug
manufacturers will continue to report quarterly AMP data in addition to their monthly submissions.
9
  CMS, Medicaid Drug Rebate Program, “Bulletin for Participating Drug Manufacturers,” Release No. 76,
December 15, 2006.
10
   In December 2007, the United States District Court for the District of Columbia preliminarily enjoined the
implementation of the regulation for certain purposes not relevant to this report. Section 203 of the Medicare
Improvements for Patients and Providers Act of 2008 also delayed the implementation of certain aspects of the
regulation and the DRA requirements. Again, those aspects are not relevant for the purposes of this report.

OEI-03-09-00150                                   Comparison of Third-Quarter 2008 ASPs and AMPs
Page 5 – Charlene Frizzera


The AMP is generally calculated as a weighted average of prices for all of a manufacturer’s
package sizes of a drug sold during a given quarter and is reported for the lowest identifiable
quantity of the drug (e.g., 1 milliliter, 1 tablet, 1 capsule).

If a manufacturer fails to provide AMP data in a timely manner, civil monetary penalties may be
imposed. 11 In addition, pursuant to section 1927(b)(4)(B) of the Act, the Secretary may
terminate a rebate agreement “for violation of the requirements of the agreement or other good
cause shown.” CMS has terminated a number of manufacturers for failure to report drug-pricing
data as required by section 1927 of the Act. CMS has also provided OIG with information about
manufacturers that failed to submit drug-pricing data for the purposes of evaluating potential
civil monetary penalty actions.

Office of Inspector General’s Monitoring of Average Sales Prices and Average
Manufacturer Prices
In accordance with its congressional mandate, OIG has issued nine quarterly pricing
comparisons since the ASP reimbursement methodology for Part B drugs was implemented in
January 2005. In addition, OIG recently completed an annual overview of ASPs and AMPs,
which examined data across all four quarters of 2007 using the revised ASP payment
methodology recently implemented by CMS. A list of all 10 reports is provided in Appendix B.

Although CMS has acknowledged the Secretary’s authority to adjust ASP payment limits based
on the findings of OIG’s pricing comparisons, CMS has yet to make any changes to Part B drug
reimbursement as a result of these studies. Rather, CMS has emphasized both the complexity of
substituting payment amounts and the importance of proceeding cautiously to avoid unintended
consequences. 12 In commenting on OIG’s reports, CMS has expressed a desire to both better
understand fluctuating differences between ASPs and AMPs and engage stakeholders, with the
intent of developing a process for making price substitutions. 13 However, CMS has not specified
what, if any, steps it will take to adjust Medicare reimbursement amounts for drugs that meet the
5-percent threshold specified in section 1847A(d)(3) of the Act.

OIG will continue to meet its congressional mandate by issuing reports based on quarterly
pricing comparisons, along with annual overviews to summarize findings across each calendar
year.

METHODOLOGY

We obtained a file from CMS containing NDC-level ASP data from the third quarter of 2008,
which were used to establish Part B drug reimbursement amounts for the first quarter of 2009.
This file also includes information that crosswalks NDCs to their corresponding HCPCS codes.



11
   Pursuant to section 1927(b)(3)(C) of the Act.
12
   OEI-03-08-00450, December 2008.
13
   OEI-03-07-00140, July 2007, and OEI-03-08-00450, December 2008.

OEI-03-09-00150                                Comparison of Third-Quarter 2008 ASPs and AMPs
Page 6 – Charlene Frizzera


Both the ASP data and the crosswalk data were current as of December 18, 2008. We also
obtained AMP data from CMS for the third quarter of 2008, which were current as of
November 6, 2008.

Analysis of Average Sales Price Data From the Third Quarter of 2008
As mentioned previously, Medicare does not base reimbursement for covered drugs on NDCs;
instead, it uses HCPCS codes. Therefore, CMS uses ASP information submitted by
manufacturers for each NDC to calculate a volume-weighted ASP for each covered HCPCS
code. When calculating these volume-weighted ASPs, CMS includes only NDCs with ASP
submissions that are deemed valid.

As of December 2008, CMS had established prices for 532 HCPCS codes based on the revised
ASP reimbursement methodology mandated by section 112(a) of the Medicare, Medicaid, and
SCHIP Extension Act of 2007. 14 Reimbursement amounts for the 532 HCPCS codes were based
on ASP data for 3,340 NDCs.

Analysis of Average Manufacturer Price Data From the Third Quarter of 2008
In quarters prior to 2008, OIG performed pricing comparisons for only those drug codes with
AMP data for every drug product used by CMS to calculate the Medicare reimbursement
amount. As a result of that conservative approach, at least 17 percent of HCPCS codes were
excluded from our analysis in any given quarter. As of the first quarter of 2008, we began
additionally examining drug codes with only partial AMP data (i.e., drug codes with AMP data
for some, but not all, of the products used to establish Medicare reimbursement). This ensures
that a broader range of drug codes is subject to OIG’s pricing comparisons.

For the purposes of this report, we divided HCPCS codes into the following three groups:

           (1) HCPCS codes with AMP data for every NDC that CMS used in its calculation of
               volume-weighted ASPs,

           (2) HCPCS codes with AMP data for only some of the NDCs that CMS used in its
               calculation of volume-weighted ASPs, and

           (3) HCPCS codes with no AMP data for any of the NDCs that CMS used in its
               calculation of volume-weighted ASPs.

As previously noted, the AMP for each NDC is reported for the lowest identifiable quantity of
the drug contained in that NDC (e.g., 1 milliliter, 1 tablet, 1 capsule). In contrast, the ASP is
reported for the entire amount of the drug contained in the NDC (e.g., for 50 milliliters, for
100 tablets). To ensure that the AMP would be comparable to the ASP, it was necessary to
convert the AMP for each NDC so that it represented the total amount of the drug contained in
that NDC.


14
     Several Part B drugs, including certain vaccines and blood products, are not paid under the ASP methodology.

OEI-03-09-00150                                      Comparison of Third-Quarter 2008 ASPs and AMPs
Page 7 – Charlene Frizzera


To calculate “converted AMPs” for NDCs in the first and second groups, we multiplied the AMP
by the total amount of the drug contained in each NDC, as identified by sources such as the CMS
crosswalk file, manufacturer Web sites, the “Red Book,” and the Food and Drug
Administration’s NDC directory. For certain NDCs, we were unable to successfully identify the
amount of the drug reflected by the ASP and therefore could not calculate a converted AMP.
Because of these unsuccessful AMP conversions, 11 HCPCS codes were removed from our
analysis.

Using NDCs with successful AMP conversions, we then calculated a volume-weighted AMP for
each of the corresponding HCPCS codes, consistent with the revised methodology for
calculating volume-weighted ASPs. Appendix C provides a more detailed description of the
methods we used to both convert AMPs and calculate volume-weighted AMPs. Table 1
provides the final number of HCPCS codes and NDCs included in our analysis after we removed
NDCs with either no AMP data or unsuccessful AMP conversions.

Table 1: Number of Drug Codes and NDCs Included in OIG’s Pricing Comparison
                                                                                Number of           Number of
 Availability of AMP Data for HCPCS Code
                                                                             HCPCS Codes               NDCs

 Complete AMP Data                                                                      325              1,291

 Partial AMP Data                                                                       129              1,083

 No AMP Data                                                                             67                222

Source: OIG analysis of third-quarter 2008 ASP and AMP data, 2009.


Comparing Volume-Weighted ASPs to Volume-Weighted AMPs for the Third Quarter of
2008 Using the Revised ASP Payment Methodology
For each of the HCPCS codes included in our study, we compared the volume-weighted ASP
and AMP and determined whether the ASP for the code exceeded the AMP by at least 5 percent.

For those HCPCS codes that met or exceeded the 5-percent threshold, we reviewed the
associated NDCs to verify the accuracy of the billing unit information. According to our review,
NDCs for four codes had billing unit information in CMS’s crosswalk file that may not have
accurately reflected the number of billing units actually contained in the NDC. Because
volume-weighted ASPs and AMPs are calculated using this billing unit information, we could
not be certain that the results for these codes were correct. Therefore, we did not consider these
four HCPCS codes as having met the 5-percent threshold.

For the remaining HCPCS codes, we then estimated the monetary impact of lowering
reimbursement to 103 percent of the AMP. 15 For each of the HCPCS codes that met the

15
  Section 1847A(d)(3)(C) of the Act directs the Secretary to replace payment amounts for drugs that meet the
5-percent threshold with the lesser of the widely available market price for the drug (if any) or 103 percent of the
AMP. For the purposes of this study, we used 103 percent of the AMP to estimate the impact of lowering
reimbursement amounts. If widely available market prices had been available for these drugs and lower than
103 percent of the AMP, the savings estimate presented in this report would have been greater.

OEI-03-09-00150                                        Comparison of Third-Quarter 2008 ASPs and AMPs
Page 8 – Charlene Frizzera


5-percent threshold, we calculated 103 percent of the volume-weighted AMP and subtracted this
amount from the first-quarter 2009 reimbursement amount for the HCPCS code, which is equal
to 106 percent of the volume-weighted ASP. To estimate the financial effect for the first quarter
of 2009, we then multiplied the difference by one-fourth of the number of services that were
allowed by Medicare for each HCPCS code in 2007, as reported in BESS. 16 This estimate
assumes that the number of services that were allowed by Medicare in 2007 remained consistent
from one quarter to the next and that there were no significant changes in utilization between
2007 and 2008.

Identifying Codes That Would Also Have Met the 5-Percent Threshold in Previous
Quarters Under the Revised Payment Methodology
Using volume-weighted ASPs and AMPs calculated under the revised ASP payment
methodology, 17 we determined whether codes meeting the 5-percent threshold in the third
quarter of 2008 would have also met the 5-percent threshold in any of the six previous quarters,
dating back to the first quarter of 2007.

Limitations
We did not verify the accuracy of manufacturer-reported ASP and AMP data, nor did we verify
the underlying methodology used by manufacturers to calculate ASPs and AMPs. Furthermore,
we did not verify the accuracy of CMS’s crosswalk files or examine NDCs that CMS opted to
exclude from its calculation of Part B drug reimbursement amounts.

Manufacturers are required to submit their quarterly ASP and AMP data to CMS 30 days after
the close of the quarter. Our analyses were performed on ASP and AMP data compiled by CMS
soon after that deadline. We did not verify whether manufacturers later provided revised or
missing data to CMS.

Furthermore, the definition of AMP changed effective January 2007, such that AMPs must now
be determined without regard to customary prompt pay discounts. 18 Because manufacturers are
still required to include customary prompt pay discounts in their ASP calculations, the dynamic
between ASPs and AMPs may be different in this report as compared to that in OIG reports
using prices submitted before 2007.

Standards
This inspection was conducted in accordance with the “Quality Standards for Inspections” issued
by the President’s Council on Integrity and Efficiency and the Executive Council on Integrity
and Efficiency.

16
   At the time of extraction, 2007 BESS data were 98 percent complete.
17
   CMS was not required to apply the revised ASP payment methodology to ASP data submitted by manufacturers
prior to the fourth quarter of 2007. However, to establish a more useful and consistent benchmark for comparisons
of ASPs and AMPs over time, OIG recently completed a report examining ASPs and AMPs for all four quarters of
2007 using the revised methodology (i.e., we recalculated volume-weighted ASPs and AMPs using the revised
methodology for the first three quarters of 2007). We used these recalculated ASPs and AMPs in this current report.
18
   Section 1927(k)(1) of the Act (as amended by section 6001(c)(1) of the DRA) and CMS, Medicaid Drug Rebate
Program, “Bulletin for Participating Drug Manufacturers,” Release No. 76, December 15, 2006.

OEI-03-09-00150                                    Comparison of Third-Quarter 2008 ASPs and AMPs
Page 9 – Charlene Frizzera


RESULTS

Of the 325 Drug Codes With Complete AMP Data, Volume-Weighted ASPs for
15 Exceeded the Volume-Weighted AMPs by at Least 5 Percent
Consistent with sections 1847A(d)(2)(B) and 1847A(d)(3) of the Act, OIG compared ASPs to
AMPs to identify instances in which the ASP for a particular drug exceeded the AMP by a
threshold of 5 percent. Under the revised ASP payment methodology mandated by statute, 15 of
the 325 HCPCS codes with complete AMP data (5 percent) met this 5-percent threshold in the
third quarter of 2008. A list of the 15 HCPCS codes, including their descriptions and HCPCS
dosage amounts, is presented in Appendix D.

Table 2 describes the extent to which ASPs exceeded AMPs for the 15 HCPCS codes. 19 For
four of the codes, volume-weighted ASPs exceeded volume-weighted AMPs by 20 percent or
more. The ASPs for two of these codes were more than double the AMPs.

                    Table 2: Extent to Which ASPs Exceeded AMPs for
                        15 HCPCS Codes With Complete AMP Data
                        Percentage by Which ASP             Number of HCPCS
                        Exceeded AMP                                   Codes
                        5.00%–9.99%                                          7
                        10.00%–19.99%                                        4
                        20.00%–29.99%                                        1
                        30.00%–39.99%                                        0
                        40.00%–49.99%                                        0
                        50.00%–59.99%                                        1
                        60.00%–69.99%                                        0
                        70.00%–79.99%                                        0
                        80.00%–89.99%                                        0
                        90.00%–99.99%                                        0
                        100% and above                                       2
                           Total                                            15

                      Source: OIG analysis of third-quarter 2008 ASP and AMP data, 2009.


Most of the HCPCS codes (12 of 15) were previously identified by OIG as having ASPs that
exceeded the AMPs by at least 5 percent. 20 Under the revised methodology, two HCPCS codes
(J1364 and Q0169) would have met the 5-percent threshold in each of the past seven quarters,
dating back to the first quarter of 2007. The remaining 10 HCPCS codes would have met the
5-percent threshold in two of the seven quarters if the revised methodology had



19
  Because of the confidential nature of ASP data, the information in the table is presented in ranges.
20
  We compared the results from this report to those in recent OIG reports (OEI-03-09-00050, OEI-03-08-00530,
and OEI-03-08-00450) that examined ASPs and AMPs for the first and second quarters of 2008 and all four quarters
of 2007 using the revised methodology.

OEI-03-09-00150                                     Comparison of Third-Quarter 2008 ASPs and AMPs
Page 10 – Charlene Frizzera


been used since the beginning of 2007. Table 3 presents a breakdown of the 12 HCPCS codes
that previously met the threshold for price adjustments under the revised methodology.

     Table 3: Twelve HCPCS Codes That Met the 5-Percent Threshold in the Third Quarter of 2008
                        and Previous Quarters Using Complete AMP Data
                                                 OIG Reports Comparing ASP and AMP

                            Third      Second          First       Fourth        Third      Second          First
             HCPCS
                          Quarter      Quarter       Quarter      Quarter      Quarter      Quarter       Quarter
             Code
                            2008         2008          2008          2007        2007         2007          2007

             J1364          X             X            X            X            X             X            X
             Q0169          X             X            X            X            X             X            X
             J8515          X             X
             J9040          X            X*
             J9225          X             X
             J9370          X            X*
             J9375          X            X*
             J9380          X            X*
             J1020          X                          X
             J2792          X                          X
             J7500          X                                                    X
             J7631          X                                                    X
            * These codes met the 5-percent threshold in the second quarter of 2008 based on partial AMP data.
            Source: OIG analysis of ASP and AMP data from the first three quarters of 2008 and all four quarters of 2007.


Lowering reimbursement amounts for the 15 HCPCS codes to 103 percent of the AMPs would
have reduced Medicare allowances by almost three-quarters of a million dollars in the first
quarter of 2009. Sections 1847A(d)(3)(A) and (B) of the Act provide that the Secretary may
disregard the ASP pricing methodology for a drug with an ASP that exceeds the AMP by at least
5 percent. Pursuant to section 1847A(d)(3)(C) of the Act, “. . . the Secretary shall, effective as of
the next quarter, substitute for the amount of payment . . . the lesser of (i) the widely available
market price . . . (if any); or (ii) 103 percent of the average manufacturer price . . . .” 21 In this
study, we identified 15 HCPCS codes that met the 5-percent threshold specified in the Act. We
estimate that, if reimbursement amounts for these 15 codes had been based on 103 percent of the
AMPs during the first quarter of 2009, Medicare expenditures would have been reduced by
$720,000 in that quarter. 22 23


21
   For the purposes of this study, we used 103 percent of the AMP to estimate the impact of lowering reimbursement
amounts. If widely available market prices had been available for these drugs and lower than 103 percent of the
AMP, the savings estimates presented in this report would have been greater.
22
   This savings estimate assumes that the number of services that were allowed by Medicare in 2007 remained
consistent from one quarter to the next and that there were no significant changes in utilization between
2007 and 2008.
23
   One of the fifteen HCPCS codes did not have any services in the 2007 BESS file. As a result, a savings estimate
could not be calculated for this code.

OEI-03-09-00150                                         Comparison of Third-Quarter 2008 ASPs and AMPs
Page 11 – Charlene Frizzera


One of the fifteen HCPCS codes accounted for over 70 percent of the estimated savings. If the
reimbursement amount for code J9225 had been based on 103 percent of the AMP during the
first quarter of 2009, Medicare expenditures would have been reduced by an estimated $509,000.

Of the 129 Drug Codes With Partial AMP Data, Volume-Weighted ASPs for
21 Exceeded the Volume-Weighted AMPs by at Least 5 Percent
In addition to examining HCPCS codes with complete AMP data, we examined 129 HCPCS
codes for which only partial AMP data were available. Under the revised payment methodology,
ASPs for 21 of these 129 HCPCS codes (16 percent) exceeded the AMPs by at least 5 percent in
the third quarter of 2008. A list of the 21 HCPCS codes, including their descriptions and
HCPCS dosage amounts, is presented in Appendix E.

Table 4 describes the extent to which ASPs exceeded AMPs for the 21 HCPCS codes. 24 For
almost half of the codes (10 of 21), volume-weighted ASPs exceeded volume-weighted AMPs
by 20 percent or more. The ASPs for three of these codes were more than double the AMPs.

                     Table 4: Extent to Which ASPs Exceeded AMPs for
                        21 HCPCS Codes With Partial AMP Data
                        Percentage by Which ASP             Number of HCPCS
                        Exceeded AMP                                   Codes
                        5.00%–9.99%                                          9
                        10.00%–19.99%                                        2
                        20.00%–29.99%                                        4
                        30.00%–39.99%                                        0
                        40.00%–49.99%                                        0
                        50.00%–59.99%                                        0
                        60.00%–69.99%                                        1
                        70.00%–79.99%                                        0
                        80.00%–89.99%                                        1
                        90.00%–99.99%                                        1
                        100% and above                                       3
                           Total                                            21

                      Source: OIG analysis of third-quarter 2008 ASP and AMP data, 2009.


Over half of the 21 HCPCS codes with partial AMP data were previously identified by OIG as
having ASPs that exceeded the AMPs by at least 5 percent. 25 Under the revised methodology,
one HCPCS code (J9260) would have met the 5-percent threshold in five of the past seven
quarters. Another six HCPCS codes would have met the 5-percent threshold in three of the
seven quarters if the revised methodology had been used since the beginning of 2007. Table 5


24
  The information in the table is presented in ranges because of the confidential nature of ASP data.
25
  Results from this report were compared to those in recent OIG reports (OEI-03-09-00050, OEI-03-08-00530, and
OEI-03-08-00450) that examined ASPs and AMPs for the first and second quarters of 2008 and all four quarters of
2007 using the revised methodology.

OEI-03-09-00150                                     Comparison of Third-Quarter 2008 ASPs and AMPs
Page 12 – Charlene Frizzera


presents a breakdown of the 12 HCPCS codes that previously met the threshold for price
adjustments under the revised methodology.

     Table 5: Twelve HCPCS Codes That Met the 5-Percent Threshold in the Third Quarter of 2008
                         and Previous Quarters Using Partial AMP Data

                                                 OIG Reports Comparing ASP and AMP

                            Third      Second         First        Fourth        Third      Second         First
             HCPCS
                          Quarter      Quarter      Quarter       Quarter      Quarter      Quarter      Quarter
             Code
                            2008         2008         2008           2007        2007         2007         2007

              J9260          X            X           X*                         X                         X
              J0560          X           X*           X*
              J0670          X           X*           X*
              J1190          X           X*           X*
              J2310          X           X*           X*
              J9060          X                        X*                                                   X
              J9062          X                        X*                                                   X
              J1642          X           X*
              J7506          X           X*
              J9185          X           X*
              J0170          X                        X*
              J0278          X                         X
             * These codes previously met the 5-percent threshold during the specified quarter based on partial AMP data.
             Source: OIG analysis of ASP and AMP data from the first two quarters of 2008 and all four quarters of 2007.


Lowering reimbursement amounts for the 21 HCPCS codes to 103 percent of the AMPs would
have reduced Medicare allowances by an estimated $9 million in the first quarter of 2009. 26 27 28
One of the twenty-one HCPCS codes accounted for almost 80 percent of the $9 million. If the
reimbursement amount for code J7614 had been based on 103 percent of the AMPs during the
first quarter of 2009, Medicare expenditures would have been reduced by an estimated
$6.8 million.




26
   For the purposes of this study, we used 103 percent of the AMP to estimate the impact of lowering reimbursement
amounts. If widely available market prices had been available for these drugs and lower than 103 percent of the
AMP, the savings estimates presented in this report would have been greater.
27
   This savings estimate assumes that the number of services that were allowed by Medicare in 2007 remained
consistent from one quarter to the next and that there were no significant changes in utilization between
2007 and 2008.
28
   Two of the twenty-one HCPCS codes did not have any services in the 2007 BESS file. As a result, savings
estimates could not be calculated for these codes.

OEI-03-09-00150                                         Comparison of Third-Quarter 2008 ASPs and AMPs
Page 13 – Charlene Frizzera


Pricing Comparisons Could Not Be Performed on 67 Drug Codes Because No AMP Data
Were Available
For 67 HCPCS codes, OIG could not compare ASPs and AMPs because there were no AMP data
for any of the 222 NDCs that CMS used when calculating drug reimbursement amounts for these
codes. In 2007, Medicare allowances for these 67 codes totaled $15 million. 29

Almost 30 percent of NDCs without AMP data belonged to manufacturers with Medicaid drug
rebate agreements. 30 Manufacturers for 29 percent of the NDCs without AMP data (65 of 222)
participated in the Medicaid drug rebate program as of the third quarter of 2008 and were
therefore generally required to submit AMP data. 31 32 The majority (65 percent) of these
65 NDCs belonged to three manufacturers.

Manufacturers for the remaining 157 of 222 NDCs did not participate in the Medicaid drug
rebate program and therefore were not required to submit AMP data.

CONCLUSION

To monitor Medicare reimbursement amounts based on ASPs and consistent with sections
1847A(d)(2)(B) and 1847A(d)(3) of the Act, OIG compared ASPs and AMPs to identify
instances in which the ASP for a particular drug exceeded the AMP by at least 5 percent. This is
OIG’s 11th report comparing ASPs and AMPs, and it examines HCPCS codes with AMP data for
every NDC that CMS used to establish reimbursement amounts, as well as HCPCS codes with
only partial AMP data.

Using the revised ASP payment methodology recently implemented by CMS, we identified a
total of 36 HCPCS codes in the third quarter of 2008 that met the threshold for price adjustment.
Fifteen of the thirty-six HCPCS codes had complete AMP data. Of these 15 codes, 12 were
previously identified by OIG as having ASPs that exceeded the AMPs by at least 5 percent under
the revised methodology. Two of the twelve HCPCS codes (J1364 and Q0169) met the
5-percent threshold in each of the past seven quarters, dating back to the first quarter of 2007.
The remaining 21 of 36 HCPCS codes also met the 5-percent threshold in the third quarter of
2008 but did not have AMP data for every NDC that CMS used when calculating
reimbursement. Finally, we could not compare ASPs and AMPs for 67 HCPCS codes because
AMP data were not submitted for any of the NDCs that CMS used to calculate reimbursement.
Manufacturers for almost 30 percent of these NDCs had Medicaid drug rebate agreements and


29
   Of the 67 HCPCS codes with no associated AMP data, 21 did not have any services in the 2007 BESS file. As a
result, these codes were not included in the total Medicare allowances for the year.
30
   To determine whether a manufacturer participated in the Medicaid drug rebate program, we consulted the list of
participating drug companies posted on CMS’s Web site.
31
   Although manufacturers with rebate agreements are generally required to submit AMP data, there may be valid
reasons why an AMP was not provided for a specific NDC in a given quarter. For example, a manufacturer may not
have been required to submit an AMP if the drug product had been terminated and there was no drug utilization
during the quarter.
32
   These 65 NDCs were crosswalked to 29 HCPCS codes.

OEI-03-09-00150                                   Comparison of Third-Quarter 2008 ASPs and AMPs
Page 14 – Charlene Frizzera


were therefore generally required to submit AMPs. OIG will continue to work with CMS to
evaluate and pursue appropriate actions against those manufacturers that fail to submit required
data.

Some of OIG’s previous reports comparing ASPs and AMPs have contained recommendations,
which we continue to support. 33 We are not making additional recommendations in this report
and, as such, are issuing the report directly in final form. If you have comments or questions
about this report, please provide them within 60 days. Please refer to report number
OEI-03-09-00150 in all correspondence.




33
  For example, OIG, “Comparison of Average Sales Prices and Average Manufacturer Prices: An Overview of
2007,” OEI-03-08-00450, December 2008.

OEI-03-09-00150                                 Comparison of Third-Quarter 2008 ASPs and AMPs
Page 15 – Charlene Frizzera


APPENDIX A

Equations Used by the Centers for Medicare & Medicaid Services To Calculate
Volume-Weighted Average Sales Prices
In the following equations, a “billing unit” is defined as the number of Healthcare Common
Procedure Coding System (HCPCS) code units that are contained in a national drug code (NDC).



1. The Revised Equation Used by the Centers for Medicare & Medicaid
   Services (CMS) To Calculate Volume-Weighted Average Sales Prices (ASP)
   Beginning April 1, 2008


                  Volume-Weighted ASP                   Sum of (ASP for NDC * Number of NDCs Sold)
                                           =
                   for the Billing Unit of
                       HCPCS Code                  Sum of (Number of NDCs Sold * Billing Units in NDC)




2. The Equation Used by CMS To Calculate Volume-Weighted ASPs Before
   April 1, 2008

                                                               ASP for NDC         * Number of NDCs Sold
                  Volume-Weighted ASP          Sum of
                                                            Billing Units in NDC
                   for the Billing Unit of
                       HCPCS Code          =
                                                                    Sum of Number of NDCs Sold




OEI-03-09-00150                                 Comparison of Third-Quarter 2008 ASPs and AMPs
Page 16 – Charlene Frizzera


APPENDIX B

Previous Office of Inspector General Reports Comparing Average Sales Prices and Average
Manufacturer Prices


   •   “Monitoring Medicare Part B Drug Prices: A Comparison of Average Sales Prices to
       Average Manufacturer Prices” (OEI-03-04-00430), April 2006

   •   “Comparison of Fourth-Quarter 2005 Average Sales Prices to Average Manufacturer
       Prices: Impact on Medicare Reimbursement for Second Quarter 2006”
       (OEI-03-06-00370), July 2006

   •   “Comparison of Third-Quarter 2006 Average Sales Prices to Average Manufacturer Prices:
       Impact on Medicare Reimbursement for First Quarter 2007” (OEI-03-07-00140), July 2007

   •   “Comparison of First-Quarter 2007 Average Sales Prices to Average Manufacturer Prices:
       Impact on Medicare Reimbursement for Third Quarter 2007” (OEI-03-07-00530),
       September 2007

   •   “Comparison of Second-Quarter 2007 Average Sales Prices and Average Manufacturer
       Prices: Impact on Medicare Reimbursement for Fourth Quarter 2007”
       (OEI-03-08-00010), December 2007

   •   “Comparison of Third-Quarter 2007 Average Sales Prices and Average Manufacturer
       Prices: Impact on Medicare Reimbursement for First Quarter 2008”
       (OEI-03-08-00130), May 2008

   •   “Comparison of Fourth-Quarter 2007 Average Sales Prices and Average Manufacturer
       Prices: Impact on Medicare Reimbursement for Second Quarter 2008”
       (OEI-03-08-00340), August 2008

   •   “Comparison of Average Sales Prices and Average Manufacturer Prices: An Overview of
       2007” (OEI-03-08-00450), December 2008

   •   “Comparison of First-Quarter 2008 Average Sales Prices and Average Manufacturer
       Prices: Impact on Medicare Reimbursement for Third Quarter 2008”
       (OEI-03-08-00530), December 2008

   •   “Comparison of Second-Quarter 2008 Average Sales Prices and Average Manufacturer
       Prices: Impact on Medicare Reimbursement for Fourth Quarter 2008”
       (OEI-03-09-00050), February 2009

OEI-03-09-00150                          Comparison of Third-Quarter 2008 ASPs and AMPs
Page 17 – Charlene Frizzera


APPENDIX C

Detailed Methodology for Converting and Volume-Weighting Average Manufacturer
Prices for the Third Quarter of 2008

Healthcare Common Procedure Coding System codes with complete average manufacturer price
data. Of the 532 Healthcare Common Procedure Coding System (HCPCS) codes with
reimbursement amounts based on average sales prices (ASP), 335 had average manufacturer
prices (AMP) for every national drug code (NDC) that the Centers for Medicare & Medicaid
Services (CMS) used to calculate volume-weighted ASPs. These 335 HCPCS codes represented
1,372 NDCs. For 15 NDCs, we could not successfully identify the amount of the drug reflected
by the ASP and therefore could not calculate a converted AMP. These 15 NDCs were
crosswalked to 10 HCPCS codes. We did not include these 10 HCPCS codes (81 NDCs) in our
final analysis.

Using the converted AMPs for the remaining 1,291 NDCs, we then calculated a
volume-weighted AMP for each of the remaining 325 HCPCS codes consistent with the revised
methodology for calculating volume-weighted ASPs.

HCPCS codes with partial AMP data. There were 130 HCPCS codes with AMP data for only
some of the NDCs that CMS used in its calculation of volume-weighted ASPs. These
130 HCPCS codes represented a total of 1,746 NDCs. AMP data were either missing or
unavailable for 648 of these NDCs, which were then excluded from our calculation of
volume-weighted AMPs. 34

We calculated converted AMPs for each of the remaining 1,098 NDCs. For 15 of the
1,098 NDCs, we could not successfully identify the amount of the drug reflected by the ASP and
therefore could not calculate a converted AMP. We removed these 15 NDCs from our
analysis. 35 As a result, one HCPCS code no longer had any NDCs with AMP data. Therefore,
this HCPCS code was removed from our analysis.

Using the converted AMPs for the remaining 1,083 NDCs, we then calculated a
volume-weighted AMP for each of the remaining 129 HCPCS codes consistent with the revised
methodology for calculating volume-weighted ASPs.




34
   Although AMP data for these 648 NDCs were excluded from our calculation of volume-weighted AMPs, the
corresponding ASPs were not excluded from the volume-weighted ASPs as determined by CMS.
Volume-weighted ASPs remained the same, regardless of the availability of AMP data.
35
   Although we removed NDCs with problematic AMP conversions, we did not remove the corresponding HCPCS
codes, provided that other NDCs for those drug codes had usable AMP data. This differs from our analysis of
HCPCS codes with complete AMP data, in which we removed not only the NDCs with problematic AMP
conversions, but also the corresponding HCPCS codes.

OEI-03-09-00150                                 Comparison of Third-Quarter 2008 ASPs and AMPs
Page 18 – Charlene Frizzera


HCPCS codes with no AMP data. For 67 HCPCS codes, there were no AMP data for any of the
NDCs that CMS used in its calculation of volume-weighted ASPs. These 67 HCPCS codes
represented 222 NDCs.




OEI-03-09-00150                        Comparison of Third-Quarter 2008 ASPs and AMPs
Page 19 – Charlene Frizzera


APPENDIX D

Fifteen Drug Codes With Complete Average Manufacturer Price Data That Met the
5-Percent Threshold in the Third Quarter of 2008


          Drug
          Code                                                    Short Description          Drug Code Dosage
          J0330                                      Succinycholine chloride injection                     20 mg

          J0720                                    Chloramphenicol sodium injection                           1g

          J1020                                          Methylprednisolone injection                      20 mg

          J1364                                                  Erythro lactobionate                    500 mg

          J2765                                         Metoclopramide HCl injection                       10 mg

          J2792                                              Rho(D) immune globulin                     100 units

          J7500                                                     Azathioprine, oral                     50 mg

          J7631                                  Cromolyn sodium inhalation solution                       10 mg

          J8515                                                     Cabergoline, oral                    0.25 mg

          J9040                                           Bleomycin sulfate injection                    15 units

          J9225                                                      Histrelin implant                     50 mg

          J9370                                           Vincristine sulfate injection                     1 mg

          J9375                                           Vincristine sulfate injection                     2 mg

          J9380                                           Vincristine sulfate injection                     5 mg

          Q0169                                               Promethazine HCl, oral                     12.5 mg

         Source: Office of Inspector General analysis of third-quarter 2008 average sales price and average manufacturer price
         data, 2009.




OEI-03-09-00150                                       Comparison of Third-Quarter 2008 ASPs and AMPs
Page 20 – Charlene Frizzera


APPENDIX E

Twenty-One Drug Codes With Partial Average Manufacturer Price Data That Met the
5-Percent Threshold in the Third Quarter of 2008


          Drug
          Code                                                    Short Description          Drug Code Dosage
          J0170                                        Adrenalin epinephrin injection                       1 mL

          J0278                                             Amikacin sulfate injection                   100 mg

          J0560                                      Penicillin G benzathine injection              600000 units

          J0640                                          Leucovorin calcium injection                      50 mg

          J0670                                            Mepivacaine HCl injection                       10 mL

          J1190                                           Dexrazoxane HCl injection                      250 mg

          J1642                                             Heparin sodium injection                     10 units

          J2310                                               Naloxone HCl injection                        1 mg

          J3250                                     Trimethobenzamide HCl injection                      200 mg

          J7506                                                      Prednisone, oral                       5 mg

          J7612                                        Levalbuterol non-compounded                        0.5 mg

          J7614                                        Levalbuterol non-compounded                        0.5 mg

          J9045                                                  Carboplatin injection                     50 mg

          J9060                                                     Cisplatin injection                    10 mg

          J9062                                                     Cisplatin injection                    50 mg

          J9185                                      Fludarabine phosphate injection                       50 mg

          J9260                                        Methotrexate sodium injection                       50 mg

          J9390                                                   Vinorelbine tartrate                     10 mg

          Q0179                                               Ondansetron HCl, oral                         8 mg

          Q9965                 Low osmolar contrast material,100-199 mg/mL iodine                          1 mL

          Q9966                 Low osmolar contrast material, 200-299 mg/mL iodine                         1 mL

         Source: Office of Inspector General analysis of third-quarter 2008 average sales price and average manufacturer price
         data, 2009.




OEI-03-09-00150                                       Comparison of Third-Quarter 2008 ASPs and AMPs
